           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



     IMPLEMENTATION OF
      BEST PRACTICES IN
   THE OFFICE OF HEARINGS
   AND APPEALS OPERATIONS

    August 1999   A-06-97-21007




EVALUATION

  REPORT

                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and

      investigations relating to agency programs and operations.

  o   Promote economy, effectiveness, and efficiency within the agency.

  0   Prevent and detect fraud, waste, and abuse in agency programs and

      operations.

  0   Review and make recommendations        regarding existing and proposed

      legislation and regulations relating to agency programs and operations.

  0   Keep the agency head and the Congress fully and currently informed of

      problems in agency programs and operations.


  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                    u~S1!Cu:'t.
                                                   ~~
                                                   \hYIlIlII<'-~
                                                      .YlS~

                                        SOCIAL          SECURIT,                y

                                        Offic,e-of the Inspector General
MEMORANDUM
n...~.      AUG   2   4   1999
                                                                                              Refer To:


To:
           John R. Dyer
           Principal Deputy Commissioner
            of Social Security

           Acting Inspector General


Subject'   Implementation of Best Practices in the Office of Hearings and Appeals Operations
           (A-06-97 -21007)


           Attached is a copy of our subject final report. The objective of this evaluation was to
           assess the usefulness of the best practices process implemented for the Office of
           Hearings and Appeals hearing offices by its Practice and Procedure Exchange.

           You may wish to comment on any further action taken or contemplated on our
           recommendations.    If you choose to offer comments, please provide them within the
           next 60 days. If you wish to discuss the final report, please call me or have your staff
           contact Daniel R. Devlin, Acting Assistant Inspector General for Audit, at
           (410) 965-9700.
                                                              -




                                                         ~~
                                                                   James   G.   Huse,   Jr.


           Attachment
                 EXECUTIVE SUMMARY


OBJECTIVE
The objective of this evaluation was to assess the usefulness of the best practices
process implemented for the Office of Hearings and Appeals (OHA) hearing offices
(HO) by its Practice and Procedure Exchange (Exchange).

BACKGROUND
On March 12, 1993, OHA established the Exchange to improve disability processing.
The Exchange consists of 11 members which include personnel from HOs, regional
offices (RO), and Headquarters. In addition, the Exchange selected regional
coordinators to assist HOs with issues related to Exchange releases. The Exchange’s
mission is to obtain innovative ideas and work processes developed by HOs and share
the best practices with HOs to help them perform more efficiently. If the Exchange
determines that a practice or procedure is beneficial, the information is distributed to
ROs and HOs.

Since June 1993, the Exchange has distributed 24 best practice releases (releases) to
ROs and HOs. Although the offices are not required to use them, the Exchange request
offices make staff aware of the releases and implement those that may be useful.

We contacted OHA officials at Headquarters and the Dallas RO to obtain background
material and copies of the releases sent to the ROs and HOs. We sent questionnaires
to the chief administrative law judge at each of the 132 HOs nationwide. The purpose
of our survey was to obtain information concerning HOs’ use of the releases. We
received 130 responses for an overall response rate of 98 percent.

FINDINGS

•   MOST HOs REPORTED THE RELEASES WERE USEFUL

•   THREE-FOURTHS OF THE HOs GAVE THE EXCHANGE A FAVORABLE RATING

•   COMMUNICATION OF EXCHANGE INFORMATION NEEDS IMPROVEMENT

•	 HOs PROVIDED SUGGESTIONS FOR IMPROVING THE EXCHANGE’S
   SERVICES




                                            i
CONCLUSIONS AND RECOMMENDATIONS
OHA’s best practices releases issued by the Exchange were viewed by HOs as a
valuable means of sharing ideas and implementing improved processes. Some
95 percent of the HOs implementing releases found them useful and only 23 percent of
the responders gave the Exchange an unfavorable rating. However, responders
reported that distribution and communication problems detracted from the releases’
effectiveness. A majority of the offices reported that they did not receive all of the
releases. Many of the HOs reported not knowing who to contact to request releases,
submit suggestions, or provide feedback. To improve the use of best practices
releases, we recommend that OHA:

•	 Improve communications between the Exchange and HOs. Ensure that all HOs
   receive copies of the releases and provide periodic updates of the names,
   addresses, and telephone numbers of Exchange members and coordinators.

•   Encourage HOs to implement releases that would benefit office operations.

•   Arrange for technical support to implement the practice or procedure when needed.

•	 Determine, periodically, how well the Exchange is communicating with and providing
   service to HOs.

AGENCY COMMENTS
In response to our draft report, the Social Security Administration (SSA) agreed with our
recommendations. SSA expects to have all four of the recommendations fully
implemented by December 31, 1999. (See Appendix D for the full text of the Agency’s
comments.)




                                            ii
                         TABLE OF CONTENTS


                                                                                                                   Page

EXECUTIVE SUMMARY………………………………………………………………... i

INTRODUCTION .................................................................................................... 1

FINDINGS .............................................................................................................. 3

    MOST HOs REPORTED THE RELEASES WERE USEFUL ............................ 3

    HOs’ RATINGS OF THE EXCHANGE .............................................................. 7

    COMMUNICATION OF EXCHANGE INFORMATION NEEDS

    IMPROVEMENT ............................................................................................... 7


    �    Most HOs Did Not Receive All of the Releases ........................................... 7

    �    HOs Do Not Know How to Contact Their Exchange Coordinator ................ 8


    HOs PROVIDED SUGGESTIONS FOR IMPROVING THE

    EXCHANGE’S SERVICES................................................................................ 8


CONCLUSIONS AND RECOMMENDATIONS .................................................... 10

APPENDICES
APPENDIX A – Office of Hearings and Appeals Practice and Procedure Exchange
             Releases
APPENDIX B – Questionnaire
APPENDIX C – Hearings Office’s Use of General and Regional Office Releases
APPENDIX D – SSA’s Comments
APPENDIX E – Major Contributors to this Report
APPENDIX F – SSA Organizational Chart
                              INTRODUCTION


OBJECTIVE
The objective of this evaluation was to assess the usefulness of the best practices
process implemented for the Office of Hearings and Appeals (OHA) hearing offices
(HO) by its Practice and Procedure Exchange (Exchange).

BACKGROUND
On March 12, 1993, OHA established the Exchange to improve disability processing.
The Exchange consists of 11 members which include: 3 administrative law judges
(ALJ); 1 regional management officer (RMO); 1 regional office (RO) attorney; 1 HO
supervisory staff attorney; 1 HO manager; 1 word processing center supervisor; the
Director of the Office of Policy, Planning and Evaluation; the Director of the Division of
Field Liaison; and 1 program analyst from the Office of the Chief ALJ. The Exchange
selected regional coordinators to serve as liaisons with HOs.

The Exchange’s mission is to obtain innovative ideas and work processes developed by
HOs and share the best practices with other offices to help them perform more
effectively and efficiently. If the Exchange determines that a practice or procedure is
beneficial, it distributes the practice or procedure as a release to ROs and HOs.

Since 1993, the Exchange has distributed 24 releases to ROs and HOs. Although there
is no requirement for ROs and HOs to use them, the Exchange requests that ROs and
HOs make staff aware of the releases and that HOs implement those that may be
useful. The releases have included such topics as a simple computer program for
decision writing and forms preparation, instructions for expediting case screening and
file preparation, a videotape on note taking at hearings, and guides for reading systems
queries. (Appendix A is a list of the 24 releases.)

SCOPE AND METHODOLOGY
We contacted OHA officials at Headquarters and the Dallas RO to obtain background
material and copies of the releases sent to HOs and ROs. We sent a questionnaire to
the chief ALJ at each of the 132 HOs nationwide. The questionnaire is shown as
Appendix B. The purpose of the questionnaire was to obtain information concerning the
offices’ use of the General (GEN) and RO releases1 issued by the Exchange. We
received 130 responses for an overall response rate of 98 percent. Some

1
  Releases with the prefix GEN are of general applicability and are directed to regional chief ALJs,
RMOs, and HO managers. Releases with the prefix RO are applicable to ROs and are directed to
regional chief ALJs and RMOs who then distribute them to the HOs.

                                                     1
questionnaires were returned with incomplete responses; for these, we followed up with
telephone calls to complete the forms. We based our findings, conclusions, and
recommendations on the responses to the questionnaires.

We conducted our evaluation from October 1997 to June 1998. Our review was
conducted in accordance with the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency.




                                          2
                                 FINDINGS


MOST HOs REPORTED THE RELEASES WERE USEFUL
There were no mandates requiring HOs to use the releases. Nonetheless,
114 (88 percent) of the 130 HOs that responded reported using 1 or more releases.
The remaining 16 HOs did not use any of the releases. They cited the following
reasons: (1) they had a similar system which was just as good as or better than the
Exchange’s (eight HOs); (2) the releases were not suitable for their offices (four HOs);
or (3) the chief ALJ decided not to use the releases (three HOs). One HO did not
provide a reason.

Of the 114 HOs using the releases, 108 offices (95 percent) reported that some
releases helped employees save time, improved office process, and improved quality of
work. Only six HOs reported that the releases were not helpful, claiming they were
unable to adapt the techniques to their offices. A table to show the numbers of HOs
using each release and reporting its usefulness is shown as Appendix C.

The releases used by most HOs were GEN releases 4, 5, 6, and 12, and RO release 1.
These HOs reported: (1) GEN releases 4 and 5 and RO release 1 saved time,
improved office process, and improved quality of work; (2) GEN release 6 improved
office process and quality of work; and (3) GEN release 12 helped save time. The
following is an explanation of these releases and a discussion of specific benefits
received by HOs using them. The specific benefits were based on comments made by
individual respondents to explain their favorable responses to each release.

General Release 4 (Effective Note Taking Video)

This release is used to train hearing reporters (including reporters at remote sites and
contract hearing reporters) and clerks on how to take effective notes during the hearing
process. As shown in Appendix C, 66 percent of the HOs used this release.

Sixty-one percent of the respondents using GEN 4 reported that the release improved
the quality of work for the following reasons.

1.	 Hearing reporters and note takers are better prepared. Terminology is precise and
    the notes contain the needed information.

2. Hearing reports are consistent regardless of who takes notes.

3. Written hearing decisions contain complete summaries.




                                            3
Forty-one percent of the respondents using this release reported that it improved the
office process for the following reasons.

1. The note-taking process is systemized and terminology is consistent.

2. Notes are better organized and complete.

3.	 Information collected during the hearing is consistent, even if done by a contract
    reporter or an office at a remote site.

4.	 Note takers are better able to identify key information to assist ALJs and writers in
    the decision process.

5. It assisted in training note takers.

Thirty-two percent of the users reported that GEN 4 saved time for the following
reasons.

1.	 The amount of time reviewing hearing tapes is reduced, because more reliance can
    be placed on the notes. It takes less time for ALJs to make decisions because notes
    are better.

2. Productivity has increased and better use is made of the decision writers’ time.

3. The improved notes expedite the hearing process.

General Release 5 (Query Guides)

This release is a series of one-page case control system Query Guides for each type of
system query. The guides are used to read records generated from computer queries
of OHA, State disability determination agencies, and beneficiary master files. The
guides assist the clerks and ALJs by providing a concise reference that explains data
contained in the queries.

As shown in Appendix C, 64 percent of the HOs use this release. One HO reported that
this is “excellent reference material.” Forty-seven percent of the users reported that it
improved the work process and cited the following reasons.

1.	 Staff, including legal assistants and decision writers, are able to interpret the Social
    Security Administration (SSA) queries. As a result, it eliminates the need to contact
    SSA district offices and field offices for explanations of SSA client data.

2.	 Procedures are written concisely on one page. It is a useful tool that can be kept at
    an individual’s desk.

3. It helps with processing and preparing cases for hearings.


                                              4
Forty percent of the users reported this release improved the quality of work for the
following reasons.

1. Better reports are prepared.

2.	 Legal assistants and report writers are able to identify and include in reports critical
    information.

3. Accurate case histories are constructed.

Thirty-eight percent of the users reported that GEN 5 saved time for the following
reasons.

1. The guides are user friendly. SSA queries are reviewed and analyzed more quickly.

2.	 The hearing process is expedited because employees are able to quickly obtain
    needed information.

GEN Release 6 (Case Control System Queries and Training)

This release consists of a series of query guides used for training providing information
on the use of the: (1) Detailed Earnings Query; (2) Number Holder Identification;
(3) Payment History Update System; (4) Bureau of Disability Insurance Query;
(5) Master Beneficiary Record; (6) DDSQ; and (7) Supplemental Security Income.

Forty-five percent of the respondents used this release. Forty-nine percent of the HOs
using this release reported that it improved their work process for the following reasons.

1. Assists new employees in learning the job.

2. Helps all staff to better understand the work.

3. Provides means to quickly retrieve commonly required information from queries.

4.	 Eliminates calls to district offices requesting explanations of data obtained from the
    Customer Information and Control System.

Forty-nine percent of the HOs reported that the quality of the work improved for the
following reasons.

1. Legal assistants and report writers are able to accurately reconstruct case histories.

2.	 ALJs are provided with more detailed and insightful information on particular case
    issues.

3. ALJs and decision writers are provided better notes.


                                              5
RO 1 (Decision Drafting Macros)

This release is a computer program which provides: (1) decision shells for disability
applications; (2) specialty macros (simple computer programs) on recurring issues
common to decision makers and decision writers; and (3) worksheets and forms which
automatically input statistical data (e.g., name and age) directly into the decision itself.

Thirty-nine percent of the HOs implemented this release. Seventy-three percent of those
offices reported that it saved time for the following reasons:

1.	 It produces a computer-generated form containing the data needed and formatted
    the way it is needed.

2. It eliminates the need to monitor tapes and dictate hearing notes.

3.	 It reduces the amount of time spent drafting decisions and analyzing information. In
    the words of one HO, “It helps get cases out.”

Forty percent of the users reported that RO 1 improved the quality of the work for the
following reasons.

1. HOs are able to send written notification of pre-hearing reviews.

2. More accurate information is provided by writers.

Thirty-three percent of the users reported that it improved the work process for the
following reasons.

1. It eliminates recording duplicate information.

2. 	It provides standard material and language for decisions. Decision writers are able
    to prepare more decisions.

3. More decisions are completed each month.

4. ALJs prepare fully favorable work sheets quickly and send to typist for completion.

GEN Release 12 (Automated Preparation of Contractor’s Invoices and Invoice
Log)

This release is a computer program which extracts selected information from the HO
Tracking System and produces a completed contractor’s invoice. This eliminates the
need to manually type invoices with carbon copies; thereby, reducing errors.

Thirty-six percent of the HOs use this release and 76 percent of those offices reported
that this release saved time for the following reasons.


                                              6
1. It shortens the preparation time for invoices.

2. 	 Clerks type invoices fast and accurately because typing invoices with carbon copies
     is eliminated.

HOs’ RATINGS OF THE EXCHANGE
Using a scale of one to five, with five being the most favorable and one being the least
favorable, HOs rated the Exchange services. As shown in Figure 1, some 77 percent
rated the Exchange three or higher. One respondent commented, “The idea of an
Exchange is excellent. These tools help improve productivity and quality. The concept
of sharing knowledge is good.” Nevertheless, other HOs complained about not
receiving all of the releases and/or the inability to adapt the releases to their particular
offices.

                                                Figure 1

                                  HEARING OFFICES RATINGS OF EXCHANGE


                              5
                                         7%


                                                          25%
                              4
                    Ratings




                                                                       45%
                              3


                                                 16%
                              2


                              1          7%

                                          Percent of Hearing Offices




COMMUNICATION OF EXCHANGE INFORMATION NEEDS
IMPROVEMENT
Overall, the HOs rated the Exchange favorably and a significant majority (88 percent)
reported using one or more of the releases. However, as discussed below, our survey
disclosed that poor communication was a problem.

Most HOs Did Not Receive All of the Releases

Between June 1993 and November 1997 the Exchange reported issuing 20 GEN and
4 RO releases to HOs. However, of the 130 respondents, 115 (88 percent) claimed that
they did not receive all of the releases. As shown in Figure 2, some of the HOs


                                                     7
(38 percent) reportedly received less than half of the releases, while only 12 percent
acknowledged receipt of all 24 releases. One respondent reported, “I only hear about
this at conferences.”

                                                                   Figure 2

                                                   RELEASES RECEIVED BY HEARING OFFICES
                                                                     50%


                                                          38%
                      Percent of Hearing Offices




                                                                                   12%




                                                       1-11       12-23       24
                                                     Number of Releases Received



HOs Do Not Know How to Contact Their Exchange Coordinator

Our survey results also disclosed that 35 percent of the respondents did not know how
to contact their Exchange coordinator. One respondent reported, “We don’t know the
coordinator or how to contact this individual.”

HOs PROVIDED SUGGESTIONS FOR IMPROVING THE EXCHANGE’S
SERVICES
Suggestions by HOs for improving the Exchange’s services were grouped into four
categories.

1. Distribute releases to all HOs.

2. 	 Improve communication and feedback between HOs and the Exchange. HOs
     implementing releases should provide feedback and share lessons learned from
     implementing the releases.

3. Provide incentives/awards for submission of ideas.



                                                                       8
4. 	 Ensure HOs have proper equipment to implement what is suggested in the releases.
     For example, some HOs do not have the capability to take expert testimony by
     speaker phone.




                                          9

 CONCLUSIONS AND RECOMMENDATIONS


OHA’s best practices releases issued by the Exchange were favorably viewed by HOs
as a valuable means of sharing ideas and implementing improved processes. Some
95 percent of the HOs using releases found them useful and 77 percent of all of the
respondents gave an overall favorable rating to the Exchange. However, distribution
and communication problems detracted from the Exchange’s effectiveness. A majority
of the offices reported that they did not receive all of the releases. Many of the HOs
reported not knowing who to contact to request releases, submit suggestions, or provide
feedback. To improve the use of best practices, we recommend that OHA:

1.	 Improve communications between the Exchange and HOs. Ensure that all HOs
    receive copies of the releases and provide periodic updates of the names,
    addresses, and telephone numbers of Exchange members and coordinators.

2. Encourage HOs to implement releases that would benefit office operations.

3. Arrange for technical support to implement the practice or procedure when needed.

4. 	Determine, periodically, how well the Exchange is communicating with and providing
    service to the HOs.

AGENCY COMMENTS
In response to our draft report, SSA agreed with our recommendations. SSA expects to
have all four of the recommendations fully implemented by December 31, 1999. (See
Appendix D for the full text of the Agency’s comments.)




                                          10
APPENDICES

                                                                             APPENDIX A

   Office of Hearings and Appeals Practice and
          Procedure Exchange Releases

Release No.                               Subject                               Date

General
Releases

 GEN 1        Vocational Expert Qualifications and Past Relevant Work         06/21/93
              Statements

 GEN 2        Charlotte Docking Procedures                                    10/26/93

 GEN 3         Hartford Hearing Offices Forms for Rescheduling from the       11/17/93
               Bench;
               1. Salt Lake City’s Monthly Report on Cases
                  Awaiting Claim Files and Pending Cases;
               2. San Rafael “Batch Day” Procedures.

 GEN 4        Effective Note Taking Video                                     01/27/94

 GEN 5        Query Guides                                                    10/20/94

 GEN 6        Query Guides for Training                                       11/08/94

 GEN 7        Representative Screening--Request Form and Case Listing         08/10/95

 GEN 8        Mobile Congressional Interact Program                           08/10/95

 GEN 9        Fort Lauderdale “What Happens Next” Letter                      08/23/95
              Office of Hearings and Appeals field office Joint Assistance
              Pilot

 GEN 10       Waiver of Formal Notice of Hearing                              08/10/95

 GEN 11       Simplified Exhibit Placement Guidelines                         08/10/95

 GEN 12       Automated Contractor Log                                        09/07/95

 GEN 13       Review of Exhibit File Label                                    09/07/95

 GEN 14       Effective Note Taking Outline                                   01/07/97

 GEN 15       North Carolina Congressional and Community Outreach             05/30/97

 GEN 16       Taking Medical Expert Testimony by Speakerphone                 10/09/97

 GEN 17       Computer Assisted Consultative Examination Request Form         10/09/97



                                             A-1

Release No.                             Subject                           Date
 GEN 18       Decision Writing Instructions                             10/09/97

 GEN 19       Response to Representative Who Has Requested Prehearing   10/09/97
              Review

 GEN 20       Vocational Expert Hypothetical Checklist                  11/07/97

Regional
Releases

 RO 1         Distribution of E-Mailed Decisional Macros Packet         08/06/93

 RO 2         Region I Lotus Monthly Calendar                           11/17/93

 RO 3         Fee Matter Macros                                         12/23/93

 RO 4         Training Information Center Resources                     10/21/94




                                          A-2

                                                                          APPENDIX B


                                  Questionnaire


Office of the Inspector General
Office of Audit – Dallas, Texas

                                    INSTRUCTIONS

The Office of the Inspector General, Office of Audit is performing a review to assess
whether the hearings offices (HOs) at the Social Security Administration Office of
Hearings and Appeals (OHA) have implemented best practices to enhance productivity
and decision accuracy.

We have asked all HOs at OHA to complete this brief questionnaire. At a later date, we
anticipate selecting a sample of offices for more in-depth review. This questionnaire
asks about your access, experiences, and use of the general and regional office
releases issued by the Practice and Procedure Exchange.

Please answer the questions that are applicable to your office. Some questions have
directions printed in bold letters. Please be sure to read and follow these directions.
Do not confine your explanations to the space allocated on our questionnaire. Use as
much space as needed for your answers. The answers you give should be based on
your office practices and experience with the general and regional office releases. We
will not identify any respondents specifically in our report.

If you have any questions about this survey, please call Elsie Chaisson at 214-767-1300
or Sterlin McGruder at 214-767-1321. They will be available to help you.

Please complete the questionnaire electronically and return it by cc:Mail, to
Elsie Chaisson at ~S8A-DAL-OI, no later than December 12, 1997.




                                           B-1

1. Which of the following General (GEN) and Regional (RO) releases have you received
   from the Practice and Procedure Exchange Committee?
   NOTE: Check all that are applicable.

  ____GEN 1  Vocational Expert Qualifications and Past Relevant Work Statements

  ____GEN 2  Charlotte Docketing Procedures

  ____GEN 3  Hartford Hearing Office Forms for Rescheduling From the Bench; Salt

             Lake City’s Monthly Report on Cases Awaiting Claims Files and
             Pending Cases; San Rafael “Batch Day” Procedures
  ____GEN 4 Effective Note Taking Video
  ____GEN 5 Query Guides
  ____GEN 6 Query Guides for Training
  ____GEN 7 Representative Screening Form and Case Listing
  ____GEN 8 Mobile Congressional Interact Program
  ____GEN 9 Fort Lauderdale “What Happens Next” Letter-OHA/FO Joint Assistance
            Pilot
  ____GEN 10 Waiver of Formal Notice of Hearing
  ____GEN 11 Simplified Exhibit Placement Guidelines
  ____GEN 12 Automated Contractor Log
  ____GEN 13 Review of Exhibit File Label
  ____GEN 14 Effective Note Taking Online
  ____GEN 15 North Carolina Congressional and Community Outreach
  ____GEN 16 Taking Medical Expert Testimony by Speakerphone
  ____GEN 17 Computer assisted Consultative Examination Request Form
  ____GEN 18 Decision Writing Instructions
  ____GEN 19 Response to Representative who has Requested Pre-Hearing Review
  ____GEN 20 Vocational Experts (VE) Hypothetical Checklist – Action

  ____RO 1      Decisional Macros

  ____RO 2      Region I LOTUS Monthly Calendar

  ____RO 3      Fee Mater Macros

  ____RO 4      Training Information Center Resources





                                        B-2

2. Have you implemented any of the General (GEN) and Regional (RO) releases?

   ____ Yes

   IF YES:      Please list by number the releases you use or have tried to use

                _______________________________________________

   ____ No

   IF NO:	      What are your reasons for not implementing any releases?
                (NOTE: Go to question 7 when finished answering.)

3. How is your staff informed about the General (GEN) and Regional (RO) releases?
         NOTE: Check all that are applicable.

   _____ Training
   _____ cc: Mail
   _____ Memorandums
   _____ Staff Meetings
   _____ Other, Explain

4. Have the General (GEN) and Regional (RO) releases you implemented assisted in
saving staff time, improving the hearing process or improving the quality of the work
process.

   ______ Yes

   ______ No

   IF YES:	     Please provide the GEN or RO number(s) and explain how you were
                assisted?

                GEN/RO Implemented
                [Enter Number (s)]

          ____________________ Saves Time, Please explain.

          ____________________ Improves Hearing Office Process, Please explain.

          ____________________ Improves Quality of Work Products, Please explain.




                                          B-3

5. Do you know how to contact your local Practices and Procedures Exchange
   Coordinator?

  ______ Yes
  ______ No

6. On a scale of 1 to 5 (1 is the lowest rating and 5 is the highest), rate the Practice and
   Procedure Exchange process? Please circle the appropriate Number.

  1 2 3 4 5

  Why did you assign this number?


7. What suggestions do you have for improving the Practices and Procedures
   Exchange services?


  Note: Please provide the identifying information for a contact person (if
  different from the person completing the questionnaire) and the person
  completing the questionnaire.
  We are requesting the following information so that we may contact you should we
  have any questions about the information you provide. As noted previously, we will
  not identify any respondents specifically in our report.

  Contact Person

  Name ________________________________________

  Title _________________________________________

  Phone number _________________________________

  Person completing the questionnaire

  Name ________________________________________

  Title _________________________________________

  Phone number _________________________________




                                            B-4

                                                    APPENDIX C

 Hearings Offices’ Use of General and Regional
                Office Releases

             Hearings
           Offices’ Using                Improves    Improves
 Release      Release       Saves Time    Process     Quality
             #       %      #      %     #     %     #     %
GEN 1       23      20      12     52    9     39    8     35
GEN 2       20      17      8      40    12    60    2     10
GEN 3       19      16      11     58    6     32    3     16
GEN 4       75      66      24     32    31    41    46    61
GEN 5       73      64      28     38    34    47    29    40
GEN 6       51      45      12     24    25    49    25    49
GEN 7       17      15      12     71    6     35    6     35
GEN 8       20      17      18     90    6     30    1     5
GEN 9       10       8      4      40    3     30    3     30
GEN 10      22      19      10     45    5     23    3     13
GEN 11      10       8      3      30    3     30    1     10
GEN 12      41      36      31     76    11    27    9     22
GEN 13      11       9      5      45    9     82    2     18
GEN 14      21      18      3      14    8     38    11    52
GEN 15       8       7      3      38    4     50    3     38
GEN 16      35      31      9      26    11    31    5     14
GEN 17      21      18      16     76    4     19    5     24
GEN 18      28      25      10     36    5     18    14    50
GEN 19       8       7      4      50    3     38    3     38
GEN 20      21      18      10     48    9     43    5     24
RO 1        45      39      33     73    15    33    18    40
RO 2        11       9      4      36    4     36    1     9
RO 3         9       8      4      44    1     11    0     0
R0 4        15      13      3      20    6     40    4     27
                  APPENDIX D



SSA’S COMMENTS

                                                      ~ SECU
                                                      C;  ~
                                                     ~
                                                     \h!11111I~~
                                                       .'VlsTi-~

                                     SOOAL               SECURITY

MEMORANDUM

Date:   July   28,   1999                                                         Refer To:


To:
        Mr. James G. Ruse, Jr.
        Acting Inspector  General
From:
        Mr. John       R. Dyer                  ~.


        Principal       Deputy        ssioner            ~~


Subject:Office    of the    Inspector   General          Draft    Report,    "Implementation        of
        Best   Practices      in the Office     of       Hearings     and   Appeals"
        (A-O6-97~21007)--INFORMATION


        Our comments on the subject   report are                    attached.   Staff
        questions may be directed   to Odessa J.                    Woods on extension         50378.

        Attachment:
        SSA Comments
Thank you for the opportunity             to comment on the draft
report   which evaluates         the usefulness      of the best practices
process   implemented       for the Office       of Hearings    and Appeals
 (ORA) hearings     offices       (HO) by its    Practice    and Procedure

Exchange     (the Exchange) .We         expect    to have all    of the

recommendations      that     are outlined     in the subject     report

fully   implemented      by December 31, 1999.            Our comments to

each specific     recommendation        are below.


OIG   RECOMMENDATION


Improve   communications      between   the Exchange and HOs.

Ensure that     all HOs receive     copies  of the releases  and

provide   periodic    updates    of the names, addresses,   and

telephone    numbers of Exchange members and coordinators


SSA   COMMENT


We concur.        Efforts     are underway    to convert  the viable

prior   Exchange       releases   to Microsoft    WORD format     and post

these   on ORA's Intranet         web page.     This will   provide    ready

access   to t,he Exchange releases          by every employee       in every

hearing    office.


OIG   RECOMMENDATION


Encourage    EOs to    implement    releases      that     would   benefit
office   operations.

SSA   COMMENT


We concur.     HOs will    be encouraged    to implement   appropriate

practices    or procedures    identified    by the Exchange.

Periodic   reminder-memoranda       will be issued   by the Office      of

the Chief   Administrative      Law Judge.


OIG   RECOMMENDATION


Arrange   for technical      support    to     implement     the   practice   or
procedure    when needed.
                                                                                       2



SSA   COMMENT


We concur.    When HOs identify           practices        on procedures      they
think  would be beneficial      in      their     offices,     efforts   will     be
made to provide   the technical           support      needed.

OIG   RECO~NDATION




Determine    periodically     how well       the Exchange   is
communicating      with   and providing        service to the       HOs.

SSA   COMMENT


We concur.       The next meeting      of the Exchange will           provide
an opportunity      to discuss     aIG'5    report   findings     and explore
further    communication     vehicles      such as the Social         Security
Intranet    pages.     Thereafter,     on an annual       basis,    the
Exchange will      conduct   an evaluation        of its   strengths      and
weaknesses     in communicating       with    and providing      service      to
the Has.
                                                                          APPENDIX E


 MAJOR CONTRIBUTORS TO THIS REPORT


Office of the Inspector General

William Fernandez, Director, Program Audits (West)


Michael Maloney, Deputy Director


Sterlin McGruder, Senior Auditor


Elsie Chaisson, Senior Evaluator


Cheryl Robinson, Writer-Editor, Technical Services



For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist, at (410) 966-5998. Refer to Common Identification Number
A-06-97-21007.
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensivefinancial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issuesof concern to SSA, Congress,and the
generalpublic. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supportsthe Office of the Inspector General (OIG) by
providing information resourcemanagement;systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensurethat OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagementof SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representativepayees,third
parties, and by SSA employeesin the performance of their duties. Or also conductsjoint
investigations with other Federal, State,and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
